Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-604

ERNEST L. FRANCWAY, JR.,
Petitioner,
Vv.
ROBERT WILKIE,
SECRETARY OF VETERANS AFFAIRS,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE NATIONAL LAW SCHOOL VETERANS CLINIC CONSORTIUM IN SUPPORT OF
PETITIONER in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(6), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 5590 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 4th day of December, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . \ Chk,
State of Nebraska . ,
My Commission Expires Nov 24, 2020 <

Notary Public Affiant 39033

 

 
